                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     EPA Employees Did Not Act
                     Consistently With Agency
                     Policy in Assisting an EPA
                     Grantee
                     Report No. 14-P-0247                   May 9, 2014




Scan this mobile
code to learn more
about the EPA OIG.
 This is one of the U.S. Environmental Protection Agency Office of Inspector General’s
 products associated with issues related to scientific integrity within the agency. For details on
 our other reports on issues related to scientific integrity, go to
 http://www.epa.gov/oig/reports/2011/20110722-11-P-0386.pdf, and
 http://www.epa.gov/oig/reports/2013/20130828-13-P-0364.pdf.



Report Contributors:                                  Eric Lewis
                                                      Dwayne Crawford
                                                      Alisha Chugh
                                                      Christine Baughman
                                                      Nyquana Manning




Abbreviations

EPA             U.S. Environmental Protection Agency
FOIA            Freedom of Information Act
NCER            National Center for Environmental Research
OIG             Office of Inspector General
ORD             Office of Research and Development
OSTP            Office of Science and Technology Policy
OW              Office of Water


Cover photo: A sign containing a fish-consumption advisory. (EPA photo)



  Hotline                                        Suggestions for Audits or
                                                 Evaluations
  To report fraud, waste or abuse, contact       To make suggestions for audits or evaluations,
  us through one of the following methods:       contact us through one of the following methods:

  email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
  phone:    1-888-546-8740                       phone:    1-202-566-2391
  fax:      1-202-566-2599                       fax:      1-202-566-2599
  online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

  write:    EPA Inspector General Hotline        write:    EPA Inspector General
            1200 Pennsylvania Avenue, NW                   1200 Pennsylvania Avenue, NW
            Mailcode 2431T                                 Mailcode 2410T
            Washington, DC 20460                           Washington, DC 20460
                        U.S. Environmental Protection Agency                                                  14-P-0247
                                                                                                             May 9, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review              EPA Employees Did Not Act Consistently With
The U.S. Environmental              Agency Policy in Assisting an EPA Grantee
Protection Agency (EPA),
Office of Inspector General,
                                     What We Found
received a hotline complaint
alleging that an Office of Water
                                    Our findings did not substantiate a hotline complaint           Fish contamination
(OW) employee interfered with                                                                       data was withheld
                                    alleging that an OW employee asked the ORD to
a grant funded by the EPA’s                                                                         that could have been
                                    terminate an EPA grant, or that the OW employee
Office of Research and                                                                              useful to the
                                    directed an EPA contractor not to publish its fish-
Development (ORD). ORD                                                                              scientific community
                                    contamination data. However, we found that the OW
awarded the grant in April                                                                          and the public.
                                    employee and an immediate supervisor did not respond
2011. We reviewed complaint
                                    in a timely manner to the EPA grantee’s requests for fish-contamination data the
allegations that the OW
                                    OW obtained from an EPA contractor in 2008. In addition, our work shows that the
employee: (1) asked the
                                    OW employee expressed concern to a senior OW staff member regarding ORD
ORD to terminate the grant;
                                    funding the grant. From September 2011 to May 22, 2012, the EPA grantee made
(2) directed an EPA contractor
                                    eight requests seeking the fish-contamination data from the OW. However, the
not to publish data on mercury
                                    EPA grantee was not able to obtain the data until May 31, 2012, after the OW
and selenium levels in fish; and
                                    posted it on a public EPA website. During this period, both the OW employee and
(3) did not cooperate with the
                                    his immediate supervisor did not respond to the EPA grantee’s requests because
EPA grantee’s request for
                                    the OW was still trying to figure out what to do with the data. However, the OW did
mercury and selenium data.
                                    not disclose or explain the reasons for not responding. Unresponsiveness to the
                                    EPA grantee/public requests is inconsistent with the agency’s Scientific Integrity
The requested data were
                                    Policy. The OW employee claimed a lack of awareness of the requirements in the
measurements of mercury and
                                    policy.
selenium in freshwater fish
from locations within states that
                                    We also found that the ORD project officers, despite their awareness of the
had fish-consumption
                                    problem, provided limited assistance to the EPA grantee in obtaining the requested
advisories due to mercury
                                    data. We believe these actions to be inconsistent with the EPA’s Assistance
contamination. We generally
                                    Administration Manual. Consequently, these EPA employees withheld for 8 months
referred to this data as “fish
                                    data that could have contributed to the scientific understanding of mercury and
contamination data.” OW
                                    selenium interactions in fish. In addition, the 4-year delay in making the 2008 data
acquired the data through an
                                    available to the general public prevented certain states from having the opportunity
EPA contract in 2008.
                                    to determine whether they needed to revise their advisories on fish the public could
                                    safely eat.
This report addresses the
following EPA theme:
                                     Recommendations and Agency Corrective Actions
  Protecting water: A            We recommend that (1) the agency’s Scientific Integrity Official develop standard
    precious, limited resource.     operating procedures that detail how staff are to comply with the EPA’s Scientific
                                    Integrity Policy requirement to provide timely responses to requests for information
                                    by the media, the public and the scientific community; and (2) the Assistant
                                    Administrator for Research and Development develop standard operating
For further information,
                                    procedures to ensure that ORD staff that serve as project officers on grants are
contact our public affairs office
at (202) 566-2391.
                                    adhering to their responsibilities under the EPA’s Assistance Administration
                                    Manual. In response to our draft report, agency action officials provided acceptable
The full report is at:              corrective actions or plans and both the recommendations are resolved. No final
www.epa.gov/oig/reports/2014/       response to this report is required.
20140509-14-P-0247.pdf
                  UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                               WASHINGTON, D.C. 20460


                                                                  THE INSPECTOR GENERAL




                                              May 9, 2014

MEMORANDUM

SUBJECT:      EPA Employees Did Not Act Consistently With Agency Policy in
              Assisting an EPA Grantee
              Report No. 14-P-0247

FROM:         Arthur A. Elkins Jr.

TO:           Lek Kadeli, Acting Assistant Administrator
              Office of Research and Development

              Nancy Stoner, Acting Assistant Administrator
              Office of Water

              Francesca Grifo, Scientific Integrity Official
              Office of Research and Development

This is our report on the subject evaluation conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

The offices responsible for implementing the audit recommendations included in this report are the
Office of Water’s Office of Science and Technology and the Standards and Health Protection Division;
and, the Office of Research and Development’s Office of the Science Advisor and National Center for
Environmental Research.

Action Required

In accordance with EPA Manual 2750, your offices provided acceptable and complete corrective actions
or planned corrective actions in response to OIG recommendations. All recommendations are resolved
and no final response to this report is required. We will post this report to our website at
http://www.epa.gov/oig.

Should you have any questions, please contact Carolyn Copper, Assistant Inspector General for Program
Evaluation, at (202) 566-0829 or copper.carolyn@epa.gov; or Eric Lewis, Director, Special Program
Reviews, at (202) 566-2664 or lewis.eric@epa.gov.
EPA Employees Did Not Act Consistently With                                                                              14-P-0247
Agency Policy in Assisting an EPA Grantee




                                  Table of Contents

 Chapters
   1    Introduction .....................................................................................................     1

                Purpose ....................................................................................................   1
                Background................................................................................................     1
                Responsible Offices ...................................................................................        4
                Scope and Methodology ...........................................................................              4

   2    OW Staff Did Not Respond to Data Requests in a Timely Manner ................                                          6

                Two Hotline Allegations Not Substantiated ................................................                      6
                OW Acquired Fish-Contamination Data in 2008 .........................................                           7
                OW Staff Did Not Respond Timely and Provide Data to the Grantee .........                                       7
                Reasons for Not Responding to the Grantee’s Data Requests ...................                                   9
                ORD Provided Limited Assistance to Help the Grantee Obtain Data ..........                                      9
                OW Delayed Public Access to Scientific Data and Reports ........................                               11
                Conclusion ................................................................................................    12
                Recommendations .....................................................................................          12
                Agency Response to Draft Report and OIG Evaluation ..............................                              13

   Status of Recommendations and Potential Monetary Benefits .............................                                     14



 Appendices
   A    OW Response to Draft Report .........................................................................                  15

   B    ORD Response to Draft Report .......................................................................                   24

   C    Distribution .......................................................................................................   26
                                  Chapter 1
                                   Introduction
Purpose
            The U.S. Environmental Protection Agency (EPA), Office of Inspector General
            (OIG), received a hotline complaint alleging that an Office of Water (OW)
            employee interfered with a grant (assistance agreement) funded by the EPA’s
            Office of Research and Development (ORD). We reviewed complaint allegations
            that the OW employee:

               1. Asked the ORD to terminate the grant.
               2. Directed an EPA contractor not to publish fish-contamination data.
               3. Did not cooperate with the EPA grantee’s request for fish-contamination
                  data.

Background
            EPA Grant Funded by ORD

            The EPA grant referenced in the hotline complaint was funded by the ORD’s
            National Center for Environmental Research’s (NCER’s) Science to Achieve
            Results grant program. The goal of the grant was to examine all existing data on
            relationships between mercury and selenium in fish from across the United States,
            and to use this information to develop a more accurate index for determining
            which fish are safe and beneficial to eat. According to the EPA grantee, the
            proposed benefit of selenium is that it offsets mercury toxicity. The grant intended
            to combine existing data sets to determine selenium-health-benefit value for
            different types of fish that people often consume. The selenium-health-benefit
            value was developed in prior research as an indicator to determine fish-
            consumption risk. The grant had three main tasks:

               1. Obtain available data sets that report mercury and selenium levels in
                  ocean fish in order to define their selenium-health-benefit value.
               2. Obtain available mercury and selenium data generated by government and
                  nongovernment organizations in order to establish selenium-health-
                  benefit values for freshwater fish across the United States.
               3. Enhance an existing model to describe biological responses from mercury
                  and selenium interactions in tissue observed in animal and human studies.




14-P-0247                                                                                     1
            The NCER was responsible for monitoring the EPA grant through a project
            officer. According to NCER guidance, the project officer ensures that:

                  The grantee complies with programmatic terms and conditions of the grant
                   agreement.
                  The project is carried out as originally outlined in the grantee’s workplan
                   or proposal.
                  Federal assistance funds are used appropriately.

            The project officer provides these assurances through baseline monitoring, which
            includes accepting progress reports (e.g., annual, semiannual or quarterly) and
            ensuring that quality-assurance requirements are met.

            Scientific Integrity Guidelines

            The EPA has spent over a decade developing and issuing policies and
            procedures on scientific integrity. In 2000, the EPA’s National Partnership
            Council developed the Principles of Scientific Integrity as a policy statement
            that establishes a set of professional principles for EPA scientists. A former
            EPA Administrator promulgated the Principles of Scientific Integrity on
            March 28, 2000. An excerpt from the policy statement says:

                   It is essential that EPA’s scientific and technical activities be
                   of the highest quality and credibility if EPA is to carry out
                   its responsibilities to protect human health and the
                   environment. Honesty and integrity in its activities and
                   decision-making processes are vital if the American public is
                   to have trust and confidence in EPA’s decisions.

            The Principles of Scientific Integrity requires EPA employees to:

                  Ensure that their work is of the highest integrity.
                  Represent their work fairly and accurately.
                  Represent and acknowledge the intellectual contributions of others.
                  Avoid financial conflicts of interest and ensure impartiality.
                  Be cognizant of and understand specific programmatic statutes.
                  Accept the affirmative responsibility to report any breach.
                  Welcome differing views and opinions on scientific and technical matters.

            On March 9, 2009, the President issued a memorandum to the heads of all
            executive departments and agencies to take action to guarantee scientific integrity
            throughout the executive branch. The President’s memorandum specifically
            stated:

                   If scientific and technological information is developed and used
                   by the federal government, it should ordinarily be made available


14-P-0247                                                                                      2
                   to the public. To the extent permitted by law, there should be
                   transparency in the preparation, identification, and use of scientific
                   and technological information in policymaking.

            Following the President’s memorandum, the former EPA Administrator issued a
            memorandum in May 2009 notifying all agency employees about the President’s
            memorandum and the important guidepost it provides for how the EPA should
            conduct and use science. Following these two memorandums, the EPA enacted its
            Scientific Integrity Policy in February 2012. The policy covers scientific research
            performed by contractors, grantees or other agency partners who assist with
            developing or applying the results of scientific activities. According to the EPA’s
            Scientific Integrity Policy, the agency’s scientist and managers are expected to:

                   Represent agency scientific activities clearly, accurately, honestly,
                   objectively, thoroughly, without political or other interference, and
                   in a timely manner, consistent with their official responsibilities.
                   While a scientist’s primary responsibility is to pursue their
                   scientific activities, it is also a scientist and his/her manager’s
                   responsibility to provide timely responses to requests for
                   information by the media, the public and the scientific community.

            Assistance Administration Manual

            The EPA’s Assistance Administration Manual—Part 1, Section 2: “Roles and
            Responsibilities”—designates the roles and responsibilities of grants management
            offices and program offices, as well as other key staff and managers administering
            assistance agreements. It is EPA policy to ensure that those with designated roles
            and responsibilities perform their duties, and they are held accountable for
            effective grants management. According to the EPA Assistance Administration
            Manual, one of the tasks of an EPA project officer is to provide customer service
            and to respond to requests and concerns.

            Prior Audit Coverage

            In EPA OIG Report No. 11-P-0386, Office of Research and Development Should
            Increase Awareness of Scientific Integrity Policies, July 22, 2011, we discussed
            whether the ORD had controls in place to address scientific integrity and research
            misconduct, and whether those controls were effective. The OIG found that
            32 percent of ORD science staff were unaware of the EPA’s Principles of
            Scientific Integrity. The OIG also found that the ORD had not updated the
            Principles of Scientific Integrity E-Training since June 2005. The OIG made a
            recommendation to improve the Principles of Scientific Integrity E-Training, to
            which ORD agreed. However, ORD also noted that the EPA’s Scientific Integrity
            Committee has been charged with standardizing scientific integrity training for
            the agency and ensuring that the appropriate EPA staff complete the necessary
            training courses.



14-P-0247                                                                                     3
                 In EPA OIG Report No. 13-P-0364, Quick Reaction Report: EPA Must Take Steps
                 to Implement Requirements of Its Scientific Integrity Policy, August 28, 2013, we
                 addressed the EPA’s progress in implementing certain requirements of its
                 agencywide Scientific Integrity Policy. We found that although an agencywide
                 training program was required by the agency’s Scientific Integrity Policy, the EPA
                 had not developed or implemented a program to instruct EPA employees on the
                 requirements and standards of scientific integrity. In addition, the EPA had not
                 generated and made publicly available an annual report on the status of scientific
                 integrity within the agency as required by the policy. The report recommended that
                 the EPA Deputy Administrator direct the Scientific Integrity Committee to
                 (1) develop and implement agencywide training on the Scientific Integrity Policy
                 in a manner that will minimize further delay in the EPA’s adherence to policy
                 requirements, (2) complete and issue an annual report on the status of scientific
                 integrity in the agency before its first formal review of the policy, and (3) provide
                 the Deputy Administrator with a written plan describing the action plan and
                 milestones for implementing and completing the training and issuing the annual
                 report. Since issuing our report, EPA has implemented or is in the process of
                 implementing all recommendations.

Responsible Offices
                 The offices responsible for implementing the audit recommendations included in
                 this report are the Office of Water’s Office of Science and Technology and the
                 Standards and Health Protection Division; and, the Office of Research and
                 Development’s Office of the Science Advisor and National Center for
                 Environmental Research.

Scope and Methodology
                 We conducted our evaluation from July 2012 through December 2013 in
                 accordance with generally accepted government auditing standards issued by the
                 Comptroller General of the United States. Those standards require that we plan
                 and perform the review to obtain sufficient, appropriate evidence to provide a
                 reasonable basis for our findings and conclusions based on our objectives. We
                 believe that the evidence obtained provides a reasonable basis for our findings and
                 conclusions based on our review objectives.

                 We interviewed appropriate OW and ORD employees named in the hotline, the
                 EPA grantee, and the EPA contractor staff. We reviewed supporting documents,
                 including EPA grant and contract files and email documentation.1 We also
                 reviewed fish-consumption advisories for the sites from which fish were sampled
                 by the EPA contractor, and draft products prepared by the EPA contractor for the

1
  The hotline complaint addressed the grant for the selenium in fish work. Therefore, our analysis included the
review of the EPA contract awarded to a contractor to conduct a fish-contamination study for the OW that produced
the information the grantee requested from the agency and the OW employee.


14-P-0247                                                                                                       4
            OW. We also reviewed applicable laws, regulations, and the EPA’s policy and
            guidance documents.




14-P-0247                                                                                 5
                                  Chapter 2
       OW Staff Did Not Respond to Data Requests
                   in a Timely Manner
            We did not substantiate hotline allegations that the OW employee requested the
            ORD to terminate the EPA grant, or that the OW employee directed an EPA
            contractor not to publish fish-contamination data. However, we found that the OW
            employee and an immediate supervisor did not respond in a timely manner to the
            EPA grantee’s requests for fish-contamination data the OW obtained from an EPA
            contractor in 2008. In addition, our work shows that the OW employee expressed
            concern to a senior OW staff member regarding ORD funding the grant. After
            making eight requests for the data starting in September 2011, the EPA grantee
            eventually obtained the data on May 31, 2012, after the OW posted the data on the
            EPA website. We also found that the ORD project officers provided limited
            assistance to help the EPA grantee obtain the requested data, which is inconsistent
            with the agency’s Assistance Administration Manual. The manual requires that
            project officers provide customer service and respond to requests or concerns by
            recipients of EPA assistance agreements.

            As a result of these actions, data that could have contributed to a scientific
            understanding of mercury and selenium interactions in fish was withheld from the
            EPA grantee for 8 months. In addition, although the OW had the data since 2008,
            OW did not post the data on the EPA’s website until 2012. This 4-year delay in
            making the data available to the general public prevented certain states from
            having the opportunity to determine whether they needed to revise their advisories
            on fish the public could safely eat.

Two Hotline Allegations Not Substantiated

            We did not substantiate two of the allegations stated in the hotline complaint.
            One allegation was that the OW employee contacted the ORD project officer to
            request termination of the EPA grant. According to the OW employee and both
            ORD project officers who monitored the EPA grant, the OW employee did not
            ask the officers to terminate the grant. Although we did not substantiate the
            allegation that the OW employee requested the grant be terminated, we found that
            the employee questioned the ORD decision to fund the grant. Specifically, when
            the OW employee was informed about ORD funding the grant, the employee
            expressed concern to a senior OW staff member. During an interview with the
            OIG, the OW employee stated the belief that the EPA grantee supported a
            scientific hypothesis on the interaction of mercury and selenium in fish, which the
            employee believed did not agree with the OW’s current position on the issue.




14-P-0247                                                                                     6
            Another allegation was that the OW employee directed the EPA contractor not to
            publish the fish-contamination data that the EPA grantee requested. According to
            the EPA contractor, the OW employee did not tell the contractor not to publish
            the data.

OW Acquired Fish-Contamination Data in 2008

            Under an EPA contract, the agency paid over $610,000 to a contractor to conduct
            a fish-contamination study for the OW. The initial objectives for the study were to
            determine whether:

               1. Mercury levels in fish sampled from selected existing state fish
                  consumption advisory sites issued prior to 2000 have changed since last
                  measured by state and/or tribal agencies.
               2. New mercury tissue data support changes to existing consumption
                  recommendations.

            The study generated data on mercury and selenium levels in freshwater fish from
            locations within states that had fish-consumption advisories due to mercury
            contamination. The EPA contractor provided the data on mercury levels in fish to
            the OW employee in February 2008. The EPA contractor gave a report on the
            mercury and selenium study to the OW employee in July 2008. The OW then put
            the report through both internal and external peer review.

            As a result of the peer reviews, the EPA amended the work assignment to have
            the EPA contractor incorporate comments from the review into the final product.
            The amended work assignment also required the EPA contractor to change the
            study report into two manuscripts—one on the mercury results and one on the
            selenium results. The EPA contractor sent the OW employee a draft manuscript
            containing results on selenium in fish in October 2008. Draft manuscripts with
            results on mercury in fish were sent in October 2008, June 2009 and September
            2009.

OW Staff Did Not Respond Timely and Provide Data to the Grantee
            From September 2011 through May 22, 2012, the EPA grantee made eight data
            requests to the OW employee. In September 2011, the EPA grantee sent request
            letters to numerous organizations. The grantee asked the organizations to provide
            existing data on mercury and selenium in fish in order to support the grantee’s
            research. The grantee stated that a letter was also sent to the OW and directly to
            the OW employee during this period. The OW employee said he never received
            this initial request letter, but on September 19, 2011, a Minnesota state official
            provided the OW employee with a copy of the data-request letter received from
            the EPA grantee, thereby making the OW employee aware of the grantee’s data
            request for mercury and selenium in fish data. The letter stated that “…In support
            of this effort, we are seeking all sources of data (published and unpublished) that


14-P-0247                                                                                      7
                    report the concentrations of these elements in fish, with emphasis on data sources
                    where both elements were assessed in the same fish sample….” After receiving
                    this letter, the OW employee contacted the ORD project officer in September
                    2011. The project officer stated that the OW employee complained that the
                    grantee was sending an inappropriate request letter to external organizations
                    requesting data. The project officer researched the issue and found no problems
                    with the request. However, the project officer stated that attempts to contact the
                    OW employee failed because the OW employee never returned calls or responded
                    to a March 2012 email to discuss the issue further.

                    According to the EPA grantee, by March 31, 2012, most of the organizations had
                    provided the requested data in response to the grantee’s initial request letter.
                    Between February 17 and May 22, 2012, the EPA grantee sent the OW employee
                    seven follow-up emails asking for the data. During that timeframe, however, the
                    OW employee only responded to one of the grantee’s emails, which the grantee
                    sent on April 12, 2012. In that email, the grantee specifically asked for access to
                    the OW fish-contamination data under the Freedom of Information Act (FOIA).
                    On the same day, instead of providing the requested data, the OW employee
                    provided information on how to submit a formal request under FOIA. The EPA
                    grantee decided not to file a formal FOIA request, stating that such a request
                    could potentially make interactions with the OW worse. During our meeting to
                    discuss the agency’s comments on our draft report, the OW manager stated that
                    the OW employee acted appropriately when instructing the grantee to file a
                    formal FOIA request.

                    According to the OW employee and the immediate supervisor, the employee
                    informed the immediate supervisor about some of the data-request emails
                    received from the EPA grantee. The OW employee stated that the supervisor’s
                    recommendation was for the employee not to reply to the emails, and instead
                    reply to the grantee when the data became available on the EPA website.
                    OW posted the data from its fish study on the EPA website on May 23, 2012.
                    On May 24, 2012, the OW employee used email to notify the EPA grantee that
                    the data of interest may be on the EPA website. The OW employee also provided
                    a website link.

                    The EPA grantee was not able to locate the study data on the EPA website from
                    the link provided.2 As a result, the EPA grantee requested the study data in
                    electronic format from the EPA contractor staff via an email dated May 30, 2012.
                    Since the EPA contractor staff was aware of the data’s availability on the EPA
                    website, on May 31, 2012, contractor staff emailed the EPA grantee two
                    spreadsheets containing the data. According to the grantee’s 2013 annual progress
                    report, the delays in obtaining the data from the agency was one of the factors that
                    necessitated extending the grant’s planned completion date a year.



2
    The OIG audit team attempted to find the study data on the EPA website and found it difficult without assistance.


14-P-0247                                                                                                               8
Reasons for Not Responding to the Grantee’s Data Requests
                 The OW employee and immediate supervisor acknowledged they did not provide
                 the data to the EPA grantee when the requests were made in 2012. Both the OW
                 employee and immediate supervisor told us that the reason was they were still
                 trying to decide what to do with the fish-contamination data and draft products
                 given to the OW employee by the EPA contractor in 2008 and 2009. According to
                 the OW employee, to meet the OW’s original objectives for the study, the plan
                 was to have the EPA contractor compare its mercury measurements to prior
                 mercury measurements that were taken by states and were the basis for issuing the
                 fish-consumption advisories. According to the OW employee, the quality of
                 earlier mercury measurements taken by the states was unknown. Therefore, the
                 OW employee and the contractor determined they could not do the data
                 comparison and could not meet the OW’s study objective as originally intended.

                 The explanations provided by the OW employee and the supervisor do not explain
                 why giving the data to the grantee would impair the OW’s use of the data. In
                 addition, despite repeated requests over several months, the OW employee never
                 disclosed or explained to the EPA grantee why the employee was not providing
                 the fish-contamination data.

                 A lack of awareness by the OW employee and the lack of understanding by the
                 supervisor about the requirements in the EPA’s Scientific Integrity Policy is also
                 an underlying reason why these OW personnel did not respond to the EPA
                 grantee’s requests in a timely manner. The OW employee’s supervisor indicated
                 being aware that the EPA has a Scientific Integrity Policy, but stated that while
                 the policy requires “timely” dissemination of information, the policy does not
                 indicate specific timeframes. Therefore, despite numerous and repeated requests
                 made by the EPA grantee, the supervisor believed that their release of the data
                 was timely. When we contacted the OW employee in January 2013, the employee
                 acknowledged a general awareness of the existence of the policy, but a lack of
                 awareness concerning the text of the policy or its specific requirements.3

ORD Provided Limited Assistance to Help the Grantee Obtain Data
                 According to the EPA Assistance Administration Manual, one of the tasks of an
                 EPA project officer is to provide customer service and respond to requests and
                 concerns. However, we found that ORD project officers provided limited
                 assistance to the EPA grantee, despite awareness that the grantee was having
                 difficulty obtaining the OW’s fish-contamination data needed for grant research.
                 The two ORD project officers responsible for monitoring the grant could have
                 better supported the EPA grantee’s effort to obtain the data by communicating
                 more with the OW employee and elevating impediments to a resolution to senior

3
  In response to OIG Report No. 13-P-0364, Quick Reaction Report: EPA Must Take Steps to Implement
Requirements of Its Scientific Integrity Policy, issued August 28, 2013, the EPA on November 21, 2013, implemented
its Scientific Integrity training program.


14-P-0247                                                                                                       9
            ORD managers. There were also lapses in communication between the OW
            employee and the ORD project officers. We believe that these actions are not
            consistent with the EPA Assistance Administration Manual.

            Although the initial ORD project officer made a limited effort to contact the OW
            employee to facilitate the EPA grantee’s data request, the current project officer
            did very little to help the grantee obtain the fish-contamination data. The initial
            project officer’s detail to another position a few months after the EPA grant was
            awarded also impacted communications between the project officer and the OW
            employee. The initial project officer was detailed to another position in July 2011,
            and a replacement was not assigned until April 2012. Despite not being able to
            monitor the grant on a full-time basis, the initial project officer said the following
            actions were taken regarding the EPA grantee’s data requests:

                  Held one September 2011 telephone conversation with the OW employee,
                   who was concerned about the language in the EPA grantee’s data-request
                   letter sent to state agencies.
                  Relayed the OW employee’s concerns about the data request to the EPA
                   grantee during a September 2011 workshop.
                  Reviewed the language of the EPA grantee’s data-request letter sent to
                   state agencies and concluded the language was satisfactory.
                  Sent a March 2012 email asking the OW employee to discuss the grant
                   under which the grantee made the data request, but did not receive a
                   response.

            Starting in April 2012, the EPA grantee shared ongoing concerns with the current
            project officer about the difficulty obtaining the requested data. The EPA grantee
            shared these concerns with the current project officer via telephone and email, and
            through the grantee’s annual progress report for the year ending March 30, 2012.

            However, the current project officer said steps were not taken to help the EPA
            grantee obtain the fish-contamination data because the current project officer:

                  Did not see it as a responsibility to intervene because the officer believed
                   there needs to be distance between the project officer and the grantee in
                   order to avoid the appearance of advocating for one grantee over another
                   grantee.
                  Believed the OW study data being requested was not fundamental for the
                   EPA grantee to complete the grant research.

            The initial project officer raised the EPA grantee’s data request issue with an
            ORD team leader. According to the team leader, the ORD had not previously
            dealt with an issue of this nature. The ORD team leader did not advise the project
            officer on the course of action to take in addressing the issue, or share with the
            team leader’s supervisor the concerns discussed with the project officer pertaining
            to the EPA grantee’s data requests. The supervisor for the ORD team leader


14-P-0247                                                                                      10
            confirmed that neither of the two project officers informed her about the
            difficulties that the EPA grantee experienced obtaining the data from the OW.

OW Delayed Public Access to Scientific Data and Reports
            As noted previously, the OW eventually posted its fish-contamination data on the
            EPA website in May 2012. However, the data was collected by the EPA
            contractor and provided to the OW employee as early as 2008. To date, the OW
            has yet to publish or publicly release any of the draft study reports or draft
            manuscripts that the EPA contractor submitted to the OW employee in 2008 and
            2009, despite the EPA investing over $600,000 in this research. The draft study
            reports addressed whether the collected mercury and selenium measurements in
            fish support changes to the existing fish-consumption advisories by states. These
            study reports remain unpublished by the OW and could potentially impact the
            health of the public who eat freshwater fish.

            States, U.S. territories and Native American tribes have primary responsibility for
            protecting residents from health risks associated with consuming contaminated,
            non-commercially caught fish and wildlife. They do this by issuing fish-
            consumption advisories. The advisories recommend that the general population,
            including recreational and subsistence fishers, as well as sensitive subpopulations
            (e.g., pregnant women, nursing mothers and children), limit or avoid consuming
            certain fish and wildlife species because of mercury concentrations.

            The OW published the Guidance for Assessing Chemical Contaminant Data for
            Use in Fish Advisories to guide state health officials responsible for designing
            contaminant-monitoring programs and issuing fish- and shellfish-consumption
            advisories. The publication only provides guidance; it does not constitute a
            regulatory requirement and offers great flexibility to users.

            When applying the EPA methodologies found in the guidance publication to
            mercury and selenium study data, the EPA contractor concluded that some of the
            current fish-consumption advisories for mercury and selenium could be either
            more restrictive or less restrictive. With regard to selenium contamination, the
            EPA contractor’s October 2008 manuscript submitted to the OW employee
            identified two bodies of water in the United States with selenium levels in fish
            above 1.5 micrograms per gram, which is high enough to limit fish meals to 16 or
            fewer per month, according to the publication. At the time, these locations had
            advisories about mercury, but not about selenium. Regarding mercury
            contamination of the 95 sites reviewed in the report, the EPA contractor’s
            July 2008 draft report stated that:

                  The same fish-consumption advisory could be issued for 41 U.S. sites.
                  A more restrictive fish-consumption advisory could be issued for
                   35 U.S. sites.



14-P-0247                                                                                      11
                  A less restrictive fish-consumption advisory could be issued for
                   19 U.S. sites.

            The EPA contractor suggested states might want to periodically re-evaluate their
            fish-consumption advisories issued to the public, especially those advisories
            issued for sites where the contractor’s study concluded more fish-consumption
            restrictions might be appropriate. Using its discretion, the OW has not publically
            released this report because they state the conclusions in the contractor’s draft
            report could not be supported by the data. However, the OW had the report peer
            reviewed and stated that the data provides an excellent baseline for future studies.
            Further, OW did not challenge excerpts from the report stating that some fish
            advisories may need to be changed.

Conclusion
            An OW employee and an immediate supervisor did not respond in a timely
            manner to an EPA grantee’s repeated requests for fish-contamination data. The
            OW employee and the immediate supervisor lacked awareness or understanding
            of the requirements found in the EPA Scientific Integrity Policy, and ultimately
            demonstrated actions that do not adhere to the policy. In addition, despite their
            awareness of the problem, two ORD project officers who monitored the grant
            provided limited assistance to the EPA grantee trying to obtain fish-contamination
            data from the OW. We believe that the assistance provided by the project officers
            is inconsistent with the responsibilities they are expected to carry out under the
            EPA’s Assistance Administration Manual.

            As a result of the actions undertaken by these EPA employees, it took 8 months
            for a grantee working on EPA-funded research to obtain data that could have been
            beneficial for completing the grant research. The information withheld could have
            led to earlier contributions related to furthering the scientific understanding of
            mercury and selenium interactions in fish. In addition, withholding the
            information prevented certain states from having the opportunity to determine
            whether they needed to revise their advisories on fish the public could safely eat.
            Further, the EPA spent over $600,000 in government funds to conduct a study for
            which the OW has yet to publish or publicly release any of the draft study reports
            or manuscripts provided by the contractor in 2008 and 2009.

Recommendations
            We recommend that the agency’s Scientific Integrity Official:

               1. Develop standard operating procedures that detail how staff are to comply
                  with the EPA Scientific Integrity Policy requirement to provide timely
                  responses to requests for information by the media, the public and the
                  scientific community.



14-P-0247                                                                                     12
            We recommend that the Assistant Administrator for Research and Development:

               2. Develop standard operating procedures to ensure that ORD staff that
                  serve as project officers on grants are adhering to their responsibilities
                  under the EPA’s Assistance Administration Manual.

Agency Response to Draft Report and OIG Evaluation

            We received comments from the OW and ORD. We reviewed the OW and ORD
            comments and made changes to the report as needed. Appendix A contains the
            OW comments and appendix B contains the ORD comments, along with our
            detailed responses.

            The OW did not concur with the draft report findings and believed our report was
            inaccurate in several areas. Although the OW disagreed with the findings, it
            agreed with the need for guidance on “timely” release of information, as the
            EPA’s current Scientific Integrity Policy lacks a definition for “timely.” The OW
            responded that the agency’s Scientific Integrity Official supports the need for a
            consistent agencywide approach to determining timeliness. The Scientific
            Integrity Official agreed to take the lead in addressing recommendation 1 and
            provided a projected completion date of December 2014. Recommendation 1 is
            resolved and open pending completion of the planned corrective action.

            In its response, the ORD stated that the ORD/NCER project officers responded
            appropriately to the grantee requests. ORD’s response provided additional
            standard operating procedures and guidance released late in 2013 that they
            indicate represents standard operating procedures to ensure that ORD staff that
            serve as project officers on grants are adhering to their responsibilities under the
            EPA’s Assistance Administration Manual. The OIG did not concur and,
            subsequently, the ORD provided us with a revision to the NCER Operational
            Manual and Project Officer Manual which is sufficient to meet the intent of our
            recommendation. Therefore, recommendation 2 is resolved with all agreed-to
            actions completed.




14-P-0247                                                                                      13
                              Status of Recommendations and
                                 Potential Monetary Benefits

                                                                                                                                 POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed-To
    No.      No.                         Subject                         Status1         Action Official               Date      Amount      Amount

     1       12    Develop standard operating procedures that detail        O       Scientific Integrity Official    12/31/14
                   how staff are to comply with the EPA Scientific
                   Integrity Policy requirement to provide timely
                   responses to requests for information by the media,
                   the public and the scientific community.

     2       13    Develop standard operating procedures to ensure          C      Assistant Administrator for      3/12/2014
                   that ORD staff that serve as project officers on                Research and Development
                   grants are adhering to their responsibilities under
                   the EPA’s Assistance Administration Manual.




1   O = Recommendation is open with agreed-to corrective actions pending.
    C = Recommendation is closed with all agreed-to actions completed.
    U = Recommendation is unresolved with resolution efforts in progress.




14-P-0247                                                                                                                                          14
                                                                                    Appendix A

                     OW Response to Draft Report
                                     (January 30, 2014)

MEMORANDUM

SUBJECT:      Draft Report: EPA Employees Did Not Act Consistent with Agency Policy in
              Assisting an EPA Grantee - Project No. OPE-FY12-0020

FROM:         Michael H. Shapiro, Deputy Assistant Administrator and
              Deputy Scientific Integrity Official

TO:           Carolyn Copper, Assistant Inspector General
              Office of Program Evaluation

Thank you for the opportunity to review and comment on OIG’s draft report, EPA Employees
Did Not Act Consistent with Agency Policy in Assisting an EPA Grantee, dated December 18,
2013. As required, we are providing our written response to the OIG’s findings, conclusions and
recommendations in the draft report that addresses two major areas, covering three allegations.
OW nonconcurs with OIG’s findings associated with all three allegations, because of numerous
inaccuracies. Specifically:

   1. The OIG agreed that the OW employee did not take the actions alleged in the hotline
      complaint, but asserted that the employee expressed “disbelief” regarding ORD funding
      the grant. The report misrepresents this disbelief as being about the scientific merit
      behind the grant. However, the correct reason for the OW employee’s disbelief was that
      the grant proposal did not undergo OW’s relevancy review before the grant award.

  OIG Response 1: Two of the three allegations against the OW employee were not
  substantiated. We did find that the OW employee and his immediate supervisor did not
  provide the requested data to the grantee in a timely manner. In a March 6, 2014, meeting to
  discuss the agency’s comments on the draft report, the OW employee stated that his disbelief
  was due to concerns that the OW was not involved in approving the grant. Based on this
  clarification, the OIG has changed the term “disbelief” used in the draft report to “concern” in
  the final report. However, despite this clarification, the OW’s explanation does not address all
  the reasons the OW employee objected to the grant. For example, in an email dated
  September 19, 2011, the OW employee stated that he could not believe that EPA gave the
  grantee a half-million dollars to do the work and that it must be a parting gift for an EPA
  employee who assisted the grantee in previous work related to this topic.


   2. The OIG concluded that the OW employee and immediate supervisor did not release fish
      contamination data in a timely manner to the grantee and the public. The report is
      inaccurate as to when the grantee first requested the data from the OW employee, why the



14-P-0247                                                                                       15
       report was not released, whether the employee followed the agency’s FOIA policies, and
       many other circumstances.


     OIG Response 2: The report accurately reflects when and how the OW employee was
     notified of the grantee’s request. The OW employee stated that on September 19, 2011,
     a state of Minnesota official provided him with the request they had received from the
     grantee, and that he talked to OW and ORD officials about it. The grantee stated a data
     request was mailed to the OW employee on September 21, 2011. Although the OW
     employee stated he did not get the request, he was aware that a request was made for the
     data before acknowledging the receipt of the grantee’s follow-up request on February 12,
     2012. Specifically, the OW employee called the ORD project officer in September 2011 to
     complain about the grant after a state of Minnesota official provided a copy of the
     grantee’s request letter. The letter specifically requested, from all sources, any published
     or nonpublished data on mercury and selenium in fish. We address not releasing the data
     and FOIA issues in OIG Response 6.


   Finally, the OIG recommends that the Assistant Administrator for Water develop standard
   operating procedures that detail how staff is to comply with the EPA Scientific Integrity
   Policy requirement to provide timely responses to requests for information by the media, the
   public and the scientific community. OW agrees with the need for guidance on “timely”
   release of information, as the Policy lacks a definition for “timely.” Thus, OW believes that a
   definition needs to be developed which is consistent Agency-wide. Dr. Francesca Grifo, the
   Agency’s Scientific Integrity Official, supports the need for a consistent Agency-wide
   approach to determining timeliness. In response to a February 22, 2013, memorandum from
   OSTP, the EPA has submitted a draft plan for increasing access to the results of federally-
   funded scientific research that would include data sets such as the one in question. Comments
   are expected back from OSTP in early March. Dr. Grifo will then take steps to work with the
   OW Deputy Scientific Integrity Official and other members of the Agency's Scientific
   Integrity Committee to begin to develop Agency-wide guidance.


    OIG Response 3: We agree and accept the described plans to develop agencywide
    guidance for ‘timeliness’ under the Scientific Integrity Policy. At the March 6, 2014,
    meeting to discuss the agency’s comments on our draft report, the Scientific Integrity
    Official agreed to be the action official for this recommendation (recommendation 1)
    because it will apply to all EPA employees. ORD agreed to track the corrective action.
    The Scientific Integrity Official provided a projected completion date of
    December 2014 for corrective action. Recommendation 1 is resolved and open
    pending completion of the planned corrective action.


The attachment to this memorandum identifies the OIG’s findings, excerpts statements in the
report that purport to support the findings, and responds to inaccuracies in the findings and




14-P-0247                                                                                       16
supporting statements. We look forward to having an opportunity to discuss the draft report and
our comments with you.

Attachment


   Response to Draft OIG Report: EPA Employees Did Not Act Consistent with
                 Agency Policy in Assisting an EPA Grantee


Allegation #1: The OW employee asked ORD to terminate the grant (based on a
hotline complaint).

Allegation #2: The OW employee directed an EPA contractor not to publish data
on mercury and selenium levels in fish (based on a hotline complaint).

      OIG Finding: The OIG did not substantiate the hotline complaints regarding a request to
       terminate the grant and direction to a contractor not to publish data. However, the OIG
       asserts that the employee expressed “disbelief” to a senior OW staff member regarding
       ORD’s funding the grant.

      Statements on page 5, paragraphs 1, 2 and 3, page 6 and all other locations in the report
       related to the OW employee’s requesting that ORD terminate a grant or directing an EPA
       contractor not to publish data on mercury and selenium levels in fish and statements
       regarding the OW employee’s expression of disbelief.

       “. . . the employee did not ask the officers to terminate the grant.”

       “ . . . the OW employee did not tell the contractor not to publish the data.”

       “We did not substantiate hotline allegations. . . However, we found that the OW
       employee expressed disbelief. . .”

       “Although we did not substantiate the allegation that the OW employee requested the
       grant be terminated, we found that the employee questioned the ORD decision to fund the
       grant. Specifically, when the OW employee was informed about ORD funding the grant,
       the employee expressed disbelief to a senior OW staff member.”

       “ . . . the OW employee did not tell the contractor not to publish the data.”. . .the OW
       employee expressed disbelief to a senior OW staff member.”

       “We did not substantiate hotline allegations. . . However, we found that the OW
       employee expressed disbelief. . .”

      OW Response: OW nonconcurs with the finding because the OIG misrepresented why
       the employee expressed disbelief. For two years prior to the events under review in this


14-P-0247                                                                                         17
      report, OW and ORD coordinated high level reviews of ORD presentations, manuscripts
      and interviews about selenium and fish. The reviews resulted in interoffice agreements on
      how the Agency would characterize and use information related to interactions between
      mercury and selenium in fish tissue.

      His disbelief was not about the scientific merit of the grant, but that OW had not been
      included in reviewing the grant proposal for relevancy to national water program research
      needs.

      Regarding the STAR grant award, the senior OW staff person wrote in an email dated
      September 19, 2011, to the OW employee, “What a mess. Here is the info on line re their
      grant. I certainly wish that NCER has asked OW to review.” After learning the details of
      the grant award, the OW employee responded in an email on September 20, 2011, “OK –
      nothing left to find. EERC/NDU competed for and won the grant fair and square. Might
      even yield some interesting and useful data – though the interpretation/conclusions will
      potentially be a bit biased.”

     OIG Response 4: Please see OIG Response 1.



Allegation #3: The OW employee did not cooperate with the EPA grantee’s
request for mercury and selenium data. (based on a hotline complaint)

1. OIG Finding: The OIG found that eight months elapsed between when the OW employee
   received a data request from the grantee and when OW made the data available to the
   grantee.

    Statements on pages 5, 6, 11 and all other statements in the report related to how much
     time elapsed between when the OW employee received a data request from the grantee
     and when OW made the data available to the grantee.

      “After making eight requests for the data starting in September 2011. . .”

      “As a result of these actions. . . data was withheld from the EPA grantee for 8 months.”

      “From September 2011 through May 22, 2012, the EPA grantee made eight data requests
      to the OW employee."

      “According to the grantee’s 2013 annual progress report, the delay in obtaining the data
      from the agency was one of the factors that necessitated extending the grant’s planned
      completion date a year.”

    OW Response: OW nonconcurs with the finding because only three months elapsed
     between when the OW employee received a February 17, 2012, email from the grantee
     and May 23, 2012, when OW made the data available to the grantee. During those three



14-P-0247                                                                                        18
       months, the EPA made a decision not to finalize the draft report, and evaluated the data to
       determine how to format it for release to the public. Furthermore, the timing of the
       release of the EPA’s data did not have any impact on launching or delaying the grantee’s
       research effort. The ORD project officer “believed the OW study data being requested
       was not fundamental for the EPA grantee to complete the grant research.” OW believes
       that:

           The OW employee received the first data request email on February 17, 2012.
           The OW employee posted the data on the EPA’s website on May 23, 2012.
           Three months elapsed from the grantee’s first request until the data were posted on
            the OW website.

           OIG Response 5: The data was accepted in 2008 and remained unchanged. The
           OW staff indicated that they did not know what to do with the data because they
           failed to assess the quality of the pre-1995 comparison data before issuing the
           contract. In September 2011, the OW employee knew the grantee had requested
           fish and selenium data (published and unpublished) from all sources when he
           called the ORD project officer to complain about the issuance of the grant.
           Consequently, in 2011 the OW employee knew of a user of the data that would
           have provided some benefit for the $610,000 investment. However, the OW
           employee and his supervisor continued to hold onto the data even after
           acknowledging receipt of several emails from the grantee in February 2012.


2. OIG Finding: The OIG found that the OW employee should have released the data to the
   grantee when he stated in an email that he intended to file a FOIA request to get the
   requested data.

    Statements on page 7 and all other statements in the report related to FOIA request.

       “In that email [i.e., an email dated April 12, 2012, from the grantee to the OW employee]
       the grantee specifically asked for access to the OW fish-contamination data under the
       Freedom of Information Act (FOIA). On the same day, instead of providing the requested
       data, the OW employee provided information on how to submit a formal request under
       FOIA.”

    OW Response: OW nonconcurs with the finding because the OW employee followed the
     EPA’s FOIA policy. According to the EPA’s FOIA Intranet website
     http://oamintra.epa.gov/?q=node/238, all FOIA requests to the EPA are received by and
     filed with the Agency FOIA Officer. “No individual is allowed to respond to a FOIA
     request unless specifically authorized to do so.”
       OIG Response 6: Given that the data should have been provided to the grantee
       when requested in conformity with the EPA Scientific Integrity Policy that
       requires a scientist and his/her manager to provide timely responses to requests
       for information by the media, the public and the scientific community, the
       grantee should not have to resort to the FOIA process.


14-P-0247                                                                                         19
3. OIG Finding: The OIG found that OW delayed public access to scientific data and reports,
   potentially endangering public health.

    Statements on page 9 and all other statements related to not releasing a report.

       “These study reports remain unpublished by the OW and could potentially impact the
       health of the public who eat freshwater fish.”

        “In addition, although the OW had the data since 2008, OW did not post the data on the
       EPA’s website until 2012. This 4-year delay in making the data available to the general
       public prevented certain states from having the opportunity to determine whether they
       needed to revise their advisories on fish the public could safely eat.”

    OW Response: OW nonconcurs with the finding because release was not “delayed;”
     there is no basis for asserting that the timing of the release was “potentially endangering
     public health;” and the raw data were posted for public use. Releasing final data is a very
     time-consuming process since it requires QA/QC review and adherence to the EPA peer
     review policy guidance. Completing these activities can take months to years; in this case
     from 2006 - 2008. Only after that are the data available for analysis and interpretation,
     which can take additional years prior to release; in this case, from 2008 to 2012. These
     time periods are not atypical for fish tissue sampling and analysis, areas in which we have
     extensive experience.

       The intent of the study was to determine whether outdated methods and data were used to
       establish pre-1995 advisories, and if so, assess the impact of applying new data and the
       EPA guidance. Unfortunately, documentation of the methods and data used prior to 1995
       were not available, preventing OW from meeting the objectives of the study and writing a
       report. We determined not to publish the draft report because the conclusions could not
       be supported by the data we had collected. Instead, OW posted the data for public use.
       The data can serve as an excellent baseline for future studies.

       Finally, the conclusion
       OIG Response             that public
                        7: The OIG    did nothealth  may
                                               use the    have“potentially
                                                       phrase    been endangered   is absolutely
                                                                             endangering   public
       unsubstantiated.  All of the study  sites have  fish consumption   advisories
       health” anywhere in its report. Rather, the OIG stated that the study reports   in place.   The
                                                                                           “. . . could
       sites were selected
       potentially         because
                   impact the  healththey  were
                                       of the    under
                                              public    advisory.
                                                      who   eat freshwater fish.” The OW posted the
       raw data for public use in 2012, which is 4 years after the OW employee obtained study
       reports on mercury and selenium from an EPA contractor in July 2008. The data
       revealed that some sites may need stricter fish advisories due to the study findings. The
       study reported that 35 of the 95 sampled sites (37 percent) need a more restrictive fish
       advisory. The OW does not explain how the reports could have been accepted by OW
       and peer reviewed, and yet contain unsupported findings.




14-P-0247                                                                                             20
4. OIG Finding: The OIG found that despite having a draft report from the contractor, OW has
   not publicly released this report.

    Statements on page 10 and all other statements related to the contractor’s draft report.

       “When applying the EPA methodologies found in the guidance publication to mercury
       and selenium study data, the EPA contractor concluded that some of the current fish-
       consumption advisories for mercury and selenium could be either more restrictive or less
       restrictive. With regard to selenium contamination, the EPA contractor’s October 2008
       manuscript submitted to the OW employee identified two bodies of water in the United
       States with selenium levels in fish above 1.5 micrograms per gram, which is high enough
       to limit fish meals to 16 or fewer per month, according to the publication. At the time,
       these locations had advisories about mercury, but not about selenium.”

       " Regarding mercury contamination of the 95 sites reviewed in the report, the EPA
       contractor’s July 2008 draft report stated that:
        The same fish-consumption advisory could be issued for 41 U.S. sites.
        A more restrictive fish-consumption advisory could be issued for 35 U.S. sites.
        A less restrictive fish-consumption advisory could be issued for 19 U.S. sites."

       “The EPA contractor suggested states might want to periodically re-evaluate their fish-
       consumption advisories issued to the public, especially those advisories issued for sites
       where the contractor’s study concluded more fish-consumption restrictions might be
       appropriate. However, the EPA has not publically released this report.”

    OW Response: OW nonconcurs with the finding because OW’s reasons for not
     finalizing the draft report are not included in the OIG report. We determined not to
     publish the draft report because the conclusions could not be supported by the data we
     had collected. However, all of the data from the study were released and made publicly
     available on May 23, 2012. State fish advisories are based on each state’s assumptions
     which may or may not be consistent with the EPA’s default assumptions. Therefore, the
     contractor’s conclusions may or may not be correct and OW exercised prudent judgment
     in deciding not to issue a report on a study that did not meet its objectives and with
     conclusions that could not be supported.

            OIG Response 8: The OW makes a general statement that the contractor
            report findings cannot be supported by the data collected. However, the OW
            does not provide any specific evidence that the report is not reliable.
            Specifically, no statements are made on the weaknesses of the preceding
            contractor statements regarding fish advisories. The report was peer reviewed,
            which resulted in changes that the contractor made and the OW accepted.
            During the review, the OW staff stated they did not know what to do with the
            data and contractor reports, not that the data and reports were unreliable.




14-P-0247                                                                                          21
5. OIG Finding: The IG states the cost of the OW project to be $610,000.

    Statements on pages 6, 9, and 11 and all other statements in the report related to the cost of the
       project.

       “Under an EPA contract, the agency paid over $610,000 to a contractor. . .”

       “To date, the OW has yet to publish or publicly release any of the draft study reports. . . , despite
       the EPA investing over $600,000 in this research.”

       “Further, the EPA spent over $600,000 in government funds to conduct a study for which the OW
       has yet to publish. . .”

    OW Response: OW nonconcurs with the finding because the OIG presents the cost with
     no context and implies that because a report was not published, the funds were not well-
     spent. Most of the funding invested in the study was spent on catching, processing and
     analyzing the fish for mercury and selenium. The cost is typical for the number of
     samples collected. Although OW did not produce a final report because the conclusions
     in the contractor’s draft report could not be supported by the data we had collected, all
     the raw data are posted for public use. Data and information related to the pre-1995
     advisories were not available, thus making the objectives of the study unachievable.

       OIG Response 9: The report does provide context on this issue. The OW failed
       to determine the utility of the pre-1995 data before issuing the contract. The
       contractor reports were peer reviewed, changed based on peer review comments,
       and accepted by the OW. However, the OW posted the information with no
       report on the strengths or limitations of the data, including an explanation of
       why the peer review process was unreliable. Consequently, the OW posted the
       data but provided potential users no information on the quality of the data.

6. OIG Finding: The IG found that an OW employee and an immediate supervisor did not
   respond in a timely manner to an EPA grantee’s repeated requests for fish-contamination
   data.

    Statements on pages 8, 11 and all other statements in the report related timely
     release of data.

       "The OW employee’s supervisor indicated being aware that the EPA has a Scientific
       Integrity Policy, but stated that while the policy requires “timely” dissemination of
       information, the policy does not indicate specific timeframes. Therefore, despite
       numerous and repeated requests made by the EPA grantee, the supervisor believed that
       their release of the data was timely."

       “The OW employee and the immediate supervisor lacked awareness or understanding of
       the requirements found in the EPA Scientific Integrity Policy, and ultimately
       demonstrated actions that do not adhere to the policy.”


14-P-0247                                                                                                 22
    OW Response: OW nonconcurs with the finding because the timing of the release of
     data was appropriate in this situation. Only three months elapsed between when the EPA
     grantee first requested the data and when it was posted on the website for public use.
     During those three months, the EPA made a decision not to finalize the draft report, and
     evaluated the data to determine how to format it for release to the public.

       The Principles of Scientific Integrity and a March 2009 Presidential memorandum were
       the documents governing scientific integrity during the study period. The OIG
       summarizes the requirements of those documents on pages 2 and 3 of its report; neither
       document addresses timeliness. The Science Integrity Policy, which is now the applicable
       policy document, requires timely responses to requests for information, but it does not
       specifically indicate what constitutes “timeliness.” What constitutes timeliness in one
       situation may not be timely in another.

    OIG Response 10: We addressed the OW position on timeliness in OIG Responses 2, 3
    and 4.


OIG Recommendation

The OIG recommends that the Assistant Administrator for Water develop standard operating
procedures that detail how staff are to comply with the EPA Scientific Integrity Policy
requirement to provide timely responses to requests for information by the media, the public and
the scientific community.

OW Response

OW believes that we responded timely to the requests from the grantee for access to data. OW
also issued all the data from the study to the public in a timely manner. In addition, all OW
employees took mandatory training in the latter part of 2013 on the Scientific Integrity Policy.
We believe this action made our employees aware of the requirements regarding timely release
of data.

However, OW agrees with the need for guidance on “timely” release of information, as the
Policy lacks a definition for “timely.” Thus, OW believes that a definition needs to be developed
that is consistent Agency-wide. Dr. Francesca Grifo, the Agency’s Scientific Integrity Official,
supports the need for a consistent Agency-wide approach to determining timeliness. In response
to a February 22, 2013, memorandum from OSTP, the EPA has submitted a draft plan for
increasing access to the results of federally-funded scientific research which would include data
sets such as the one in question. Comments are expected back from OSTP in early March. Dr.
Grifo will then take steps to work with the OW Deputy Scientific Integrity Policy Official and
other members of the Agency's Scientific Integrity Committee to begin to develop Agency-wide
guidance.


      OIG Response 11: Please see OIG Response 3 regarding the recommendation.



14-P-0247                                                                                          23
                                                                                    Appendix B

                     ORD Response to Draft Report
                                      (January 30, 2014)


MEMORANDUM

SUBJECT:      Response to the Office of Inspector General Draft Report, EPA Employees Did
              Not Act Consistent with Agency Policy in Assisting an EPA Grantee, dated
              December 19, 2013

FROM:         Lek G. Kadeli, Acting Assistant Administrator

TO:           Arthur A. Elkins, Jr., Inspector General
              Office of Inspector General

Thank you for the opportunity to review and comment on the OIG’s draft report, EPA Employees
Did Not Act Consistent With Agency Policy in Assisting an EPA Grantee, (Project No. OPE-
FY12-0020).

The Office of Research and Development (ORD) appreciates the analysis the OIG staff provided
regarding their expectations for “customer service and to respond to requests and concerns.” We
believe the ORD/NCER project officers responded appropriately to grantee requests. ORD takes
customer service seriously.

Provided in the table below, is ORD’s response to the OIG’s recommendation.

Rec.   Subject                 Corrective Action                                              Estimated
No.                                                                                          Completion
                                                                                                Date
2      Develop standard        ORD will continue providing standard operating                Completed
       operating               procedures and guidance to NCER project officers via the
       procedures to ensure    NCER Extramural Management Policies and Procedures
       that ORD staff that     Library. Additionally, in 2013, ORD released the NCER
       serve as project        Operations Manual, NCER Project Officer’s Manual, and
       officers on grants      NCER Standard Operating Procedures and Guidance for
       are adhering to their   Annual Progress Report Review and Baseline Monitoring
       responsibilities        Reports, each of which provides guidance and standard
       under the EPA’s         operating procedures to ensure that ORD staff that serve as
       Assistance              project officers on grants are adhering to their
       Administration          responsibilities under the EPA’s Assistance Administration
       Manual.                 Manual.




14-P-0247                                                                                      24
   OIG Response 12: The agency’s Assistance Administration Manual requires project
   officers to provide customer service and respond to requests or concerns by recipients
   of EPA assistance agreements. Our draft report demonstrates that the two ORD project
   officers responsible for monitoring the grant did not elevate to senior ORD officials the
   OW denial of data to the ORD grantee. That would have allowed senior ORD officials
   the opportunity to resolve the issue in accordance with the agency’s Assistance
   Administration Manual.

   In its response, the ORD lists additional standard operating procedures and guidance
   released late in 2013 that represent standard operating procedures to ensure that ORD
   staff that serve as project officers on grants are adhering to their responsibilities under
   the EPA’s Assistance Administration Manual. Specifically, the NCER Standard
   Operating Procedures and Guidance for Annual Progress Report Review and Baseline
   Monitoring Reports (dated November 2013) covers project officer responsibilities to
   discuss any difficulties encountered or that might be encountered in carrying out the
   project, as well as remedial actions that have or might be taken. The NCER Operations
   Manual (dated September 2013) provides appropriate guidance to assist awardees
   during post-award management.

   Our analysis of these new standard operating procedures and guidance documents
   revealed them to be more descriptive of project officers’ responsibilities in the post-
   award monitoring phase, which was when the EPA grantee was having data acquisition
   problems. However, our analysis did not reveal procedures for the elevation of
   outstanding issues to upper level ORD management for matters that cannot be resolved
   at the project officer level. During our March 6, 2014, meeting to discuss agency
   comments on the draft report, the ORD agreed to make revisions to guidance released
   late in 2013. On March 12, 2014, the ORD provided the OIG with its revised NCER
   Operational Manual and Project Officer Manual that included language to elevate
   conversations to the next supervisory level in order to manage a situation for which no
   guidance is available for common issues that derail research progress. The OIG has
   determined the corrective actions taken by the ORD to be sufficient to meet the intent of
   our recommendation. Therefore, recommendation 2 is resolved with all agreed-to
   actions completed.


Should you or your staff have any questions related to EPA’s Office of Research and
Development’s responsibilities for recommendation 2, please contact Deborah Heckman at (202)
564-7274.

cc: Ramona Trovato
    Bob Kavlock
    Jim Johnson




14-P-0247                                                                                        25
                                                                               Appendix C

                                    Distribution
Office of the Administrator
Assistant Administrator for Research and Development
Assistant Administrator for Water
Scientific Integrity Official, Office of Research and Development
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Deputy Assistant Administrator for Science, Office of Research and Development
Associate Assistant Administrator, Office of Research and Development
Principal Deputy Assistant Administrator for Water
Director, National Center for Environmental Research, Office of Research and Development
Director, Office of Science and Technology, Office of Water
Director, Standards and Health Protection Division, Office of Water
Audit Follow-Up Coordinator, Office of Research and Development
Audit Follow-Up Coordinator, Office of Water




14-P-0247                                                                                  26
